        EVALUATION REPORT


     Evaluation of NRC’s Oversight of Tritium Production at
               Commercial Nuclear Power Plants

                    OIG-11-A-19 September 21, 2011




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                               September 21, 2011



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    EVALUATION OF NRC’S OVERSIGHT OF TRITIUM
                            PRODUCTION AT COMMERCIAL NUCLEAR POWER
                            PLANTS (OIG-11-A-19)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Evaluation of
NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants.

The report presents the results of the subject evaluation. Agency comments provided at
the September 9, 2011, exit conference have been incorporated, as appropriate, into
this report.

We appreciate the cooperation extended to us by members of your staff during the
evaluation. If you have any questions or comments about our report, please contact me
at 415-5915 or Sherri Miotla, Team Leader, Nuclear Materials and Waste Safety Audit
Team, at 415-5914.


Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Cynthia Carpenter, Acting Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
         Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



EXECUTIVE SUMMARY

   BACKGROUND

         The Nuclear Regulatory Commission (NRC) is responsible for ensuring
         that nuclear power plant licensees operate nuclear power plants in a
         manner that protects public health and safety and the environment.
         Tritium is a radioactive isotope of hydrogen used in U.S. nuclear weapons.
         In 1999, Federal law authorized tritium production at two commercial
         nuclear power plants owned by the Tennessee Valley Authority (TVA).

         The Department of Energy (DOE) works with the Department of Defense
         to maintain the quantity and quality of the U.S. nuclear weapons stockpile.
         Tritium production at commercial nuclear power plants involves the
         redesign of an important reactor core component as well as coordination
         between NRC and DOE. To produce tritium, the normal absorbing
         material in the reactor core, boron, is replaced by an isotope of lithium,
         requiring a redesign of the absorber rods. That isotope of lithium is an
         absorber like boron, but the nuclear reaction it undergoes during the
         absorption process also produces tritium. Such rods are called tritium
         producing burnable absorber rods (TPBARs).

         On May 22, 1996, the Secretary of Energy and the NRC Chairman signed
         a memorandum of understanding that established the basis for NRC
         review and consultation regarding DOE’s use of commercial nuclear
         reactors for producing tritium. NRC reviewed DOE’s proposal to test fuel
         assemblies containing TPBARs in a commercial nuclear reactor and
         DOE’s safety assessments on tritium production. In May 1999, NRC
         issued its own safety evaluation. Subsequently, NRC also issued license
         amendments to TVA allowing loading of TPBARs at Watts Bar Nuclear
         Power Plant Unit 1 and Sequoyah Nuclear Power Plant Units 1 and 2,
         although tritium production has only occurred at Watts Bar Unit 1.


   RESULTS IN BRIEF

         NRC’s oversight of tritium production at commercial nuclear power plants
         is generally effective. The Office of the Inspector General (OIG) also
         concluded that NRC’s licensing of tritium production at two nuclear power
         plants owned by TVA is permitted under Federal law and although tritium

                                            i
     Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



     effluents have increased from TVA’s Watts Bar Unit 1 during tritium
     production, they are still well below regulatory limits. However, there are
     some areas that merit management’s consideration. OIG determined that:

         It is unclear to stakeholders whether TVA needs subsequent NRC
         authorization to produce tritium at Sequoyah Units 1 and 2.

         NRC’s communication with stakeholders regarding tritium production
         could be improved.

AGENCY COMMENTS

     Agency comments provided during a September 9, 2011, exit conference
     have been incorporated, as appropriate, into this report. The agency
     declined to provide formal comments.




                                       ii
       Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



ABBREVIATIONS AND ACRONYMS


       Ci             Curie

       CFR            Code of Federal Regulations

       DOE            Department of Energy

       OIG            Office of the Inspector General

       mrem           millirem

       NRC            Nuclear Regulatory Commission

       µCi/ml         Micro curries per milliter

       TVA            Tennessee Valley Authority

       TPBARs         Tritium Producing Burnable Absorber Rods




                                         iii
         Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



TABLE OF CONTENTS

         EXECUTIVE SUMMARY ...................................................................... i

         ABBREVIATIONS AND ACRONYMS ................................................. iii

                I.     BACKGROUND .................................................................... 1

                II. PURPOSE ........................................................................... 7

                III. RESULTS ............................................................................ 7

                     A. NRC’s Licensing of Tritium Production Is
                        Permitted Under Federal Law………………………………...8

                     B. Watts Bar Unit 1 Tritium Effluents Increased,
                        and Are Below Regulatory Limits ....................................... 8

                     C. It Is Unclear to Stakeholders Whether TVA Is
                        Authorized To Produce Tritium at
                        Sequoyah Units 1 and 2 ..................................................11

                     D. NRC’s Communication Regarding Tritium
                        Production Could Be Improved ........................................13

                IV. AGENCY COMMENTS .......................................................15


    APPENDIX

                SCOPE AND METHODOLOGY…………………………………...16




                                                     iv
                  Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



I.        BACKGROUND

                  The Nuclear Regulatory Commission (NRC) is responsible for ensuring
                  that nuclear power plant licensees operate nuclear power plants in a
                  manner that protects public health and safety and the environment.
                  Tritium is a radioactive isotope1 of hydrogen used in U.S. nuclear
                  weapons. Traditionally, U.S. commercial nuclear power production has
                  been independent of the Nation’s nuclear weapons program. However, in
                  1999, Federal law authorized tritium production at two commercial nuclear
                  power plants owned by the Tennessee Valley Authority (TVA).2 As NRC
                  continues to provide oversight of tritium production, the agency may need
                  to identify new approaches to licensing and communications.

                  NRC’s Mission

                  NRC’s mission is to regulate the Nation’s civilian use of nuclear materials
                  to ensure adequate protection of public health and safety, promote the
                  common defense and security, and protect the environment. NRC’s
                  regulatory mission covers regulation of commercial reactors generating
                  electric power and research and test reactors used for research, testing,
                  and training. Currently, there are 104 nuclear power reactors licensed to
                  operate in the United States, and these reactors generate about 20
                  percent of the Nation’s electrical use.

                  What is Tritium?

                  Tritium, a radioactive isotope of hydrogen, is produced naturally in the
                  upper atmosphere when cosmic rays strike nitrogen molecules in the air.
                  Like hydrogen, tritium reacts with oxygen to form water. However, when
                  tritium reacts with oxygen, it forms tritiated water. Tritiated water is water
                  in which some of the non-radioactive hydrogen atoms in the water are
                  replaced by tritium. Tritium can enter the human body when people
                  swallow tritiated water. People are exposed to small amounts of tritium
                  every day since it is widely dispersed in the environment and in the food
                  chain. As with all ionizing radiation, exposure to tritium increases the risk

1
    Atoms that have the same number of protons but different numbers of neutrons are isotopes.
2
 TVA is a Federal corporation set up by Congress and is the Nation’s largest public power company,
supplying electricity to people in parts of seven southeastern States.


                                                     1
                Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



                 of developing cancer. However, because tritium emits very low energy
                 ionizing radiation and leaves the human body relatively quickly, tritium is
                 one of the least dangerous radioactive isotopes.

                 Tritium is a crucial component of U.S nuclear weapons; it is used in U.S.
                 nuclear warheads to enhance the explosive yield. Tritium has a relatively
                 short half-life3 of approximately 12 years – it decays at a rate of about 5
                 percent per year. Tritium’s relatively short half-life makes it necessary for
                 routine replenishing in U.S. nuclear weapons.

                 Tritium Production

                 Although tritium occurs naturally in the environment and as a byproduct of
                 electricity production at commercial nuclear reactors, the amounts of
                 tritium from these sources are too small for practical use. Therefore,
                 tritium must be produced in larger quantities. The production of tritium
                 requires the generation of energetic neutrons. One way of producing
                 these neutrons is through the use of a nuclear reactor.

                 To produce tritium in a nuclear reactor for use in nuclear weapons, a
                 redesign of an important reactor core component is required. Some
                 commercial nuclear reactors contain burnable absorber rods in the reactor
                 core that control the production and distribution of heat in the core by
                 absorbing excess neutrons that would otherwise produce fission reactions.
                 To produce tritium in a nuclear reactor, the normal absorbing material,
                 boron, is replaced by an isotope of lithium, requiring a redesign of the
                 absorber rods. That isotope of lithium is an absorber like boron, but the
                 nuclear reaction it undergoes during the absorption process also produces
                 tritium. Such rods are called tritium producing burnable absorber rods
                 (TPBARs).

                 The National Nuclear Security Administration, a semi-autonomous agency
                 within the Department of Energy (DOE), works with the Department of
                 Defense to maintain the quantity and quality of the U.S. nuclear weapons
                 stockpile. On December 5, 1995, DOE issued a Record of Decision in
                 which it committed to ensuring adequate tritium production capability for




3
 Half-life is the time in which one half of the atoms of a particular radioactive substance disintegrate into
another nuclear form. Measured half-lives can vary from millionths of a second to billions of years.

                                                      2
                Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



                the Nation’s nuclear weapons.4 The decision initiated DOE’s lease of
                irradiation services from an existing commercial nuclear reactor. On May
                7, 1999, DOE selected commercial nuclear power plants, TVA’s Watts Bar
                Unit 1 and Sequoyah Units 1 and 2, as its long-term sources for tritium
                production.

                NRC Oversight of Tritium Production

                Commercial nuclear power plants are required to operate in accordance
                with NRC regulations and their NRC operating licenses. NRC licenses
                contain technical specifications that are derived from a nuclear power
                plant’s safety analysis and NRC regulations. Technical specifications
                impose safety limits on power plant operations and require certain
                surveillance activities, design features, and administrative controls under
                which a licensee must operate its nuclear power plant. Changes to
                technical specifications require NRC approval via a license amendment.

                Tritium production at commercial nuclear reactors involves coordination
                between NRC and DOE. On May 22, 1996, the Secretary of Energy and
                the NRC Chairman signed a memorandum of understanding that
                established the basis for NRC review and consultation regarding DOE’s
                use of commercial nuclear reactors for producing tritium. As such, NRC
                assisted DOE in assessing and resolving technical and licensing issues
                involved in using commercial reactors for tritium production. More
                specifically, NRC reviewed DOE’s proposal to test irradiation of a limited
                number of fuel assemblies containing TPBARs in a commercial nuclear
                reactor. NRC documented its safety review of DOE’s proposal to test a
                limited number of fuel assemblies in NUREG-1607,5 which was published
                in 1997. NRC also reviewed DOE’s safety assessments on tritium
                production and issued its safety evaluation6 in May 1999.



4
  Historically, tritium for replenishment of existing nuclear weapons was produced in a nuclear reactor –
the K reactor, at DOE’s Savannah River Site in South Carolina. In 1988, the reactor was shut down for
safety reasons and no additional tritium was produced by DOE for weapons purposes.
5
  NUREG-1607 is titled, “Safety Evaluation Report related to the Department of Energy’s proposal for the
irradiation of lead test assemblies containing tritium-producing burnable absorber rods in commercial
light-water reactors.”
6
  NUREG-1672 is titled, “Safety Evaluation Report related to the Department of Energy’s topical report on
the tritium production core.”


                                                     3
                   Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



                   NRC Licensing of Tritium Production at Watts Bar Unit 1

                   Watts Bar Nuclear Plant, Unit 1, is located near Spring City, Tennessee –
                   60 miles southwest of Knoxville, Tennessee. Watts Bar Unit 1 is a
                   Westinghouse four-loop pressurized water reactor. Watts Bar Unit 1’s
                   operating license was issued February 7, 1996, and expires November 9,
                   2035. Watts Bar Unit 1, the last commercial nuclear unit in the United
                   States to come online in the 20th century, began commercial operation in
                   May 1996.

                   Since Watts Bar Unit 1 came online, NRC has issued multiple license
                   amendments allowing irradiation of TPBARs. In August 2001, TVA filed
                   an application to amend the Watts Bar Unit 1 operating license to allow for
                   irradiation of up to 2,304 TPBARs in the reactor core each fuel cycle.
                   NRC issued a license amendment in September 2002 approving
                   irradiation of 2,304 TPBARs as requested by TVA in the Watts Bar Unit 1
                   reactor. In its May 1999 safety evaluation on DOE’s tritium production
                   program, NRC explained that DOE established a permeation goal of less
                   than 1 curie7 per year per TPBAR. However, the actual permeation rate8
                   was up to 4.2 curies per year per TPBAR. Therefore, if Watts Bar Unit 1
                   irradiated 2,304 TPBARs, the permeation of tritium might have been
                   approximately 9,600 curies into the reactor coolant annually. There are no
                   regulatory requirements governing the amount of tritium allowed in the
                   reactor coolant. In May 2003, TVA requested another license amendment
                   to reduce the amount of TPBARs to be irradiated to 240 TPBARs per
                   cycle in Watts Bar Unit 1. NRC approved that request in October 2003. In
                   May 2009, NRC issued another license amendment, number 77, which
                   authorized TVA to irradiate up to 704 TPBARs at Watts Bar Unit 1. Table
                   1 depicts the license amendments issued by NRC to TVA allowing
                   irradiation of TPBARs at Watts Bar Unit 1.




7
  A curie (Ci) is a unit used to measure the intensity of radioactivity. It refers to the amount of ionizing
radiation released when an element spontaneously emits energy as a result of the radioactive decay (or
disintegration) of an unstable atom. Radioactivity is also the term used to describe the rate at which
radioactive material emits radiation, or how many atoms in the material decay (or disintegrate) in a given
                                                     10
time period. One Ci is equal to 37 billion (3.7 x 10 ) disintegrations per second.
8
    The permeation rate is the amount of tritium that leaks into the reactor coolant annually.


                                                        4
               Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



       Table 1: NRC License Amendments Allowing TPBARs at Watts Bar Unit 1


                                    License Amendment             Number of TPBARs
                  Date
                                          Number                 (upper limit permitted)


         September 15, 1997                   89                            32



         September 23, 2002                   40                          2,304



           October 8, 2003                    48                           240



          January 18, 2008                    67                           400



             May 4, 2009                      77                           704


       Source: Office of the Inspector General (OIG) analysis of NRC documents.


               NRC issued a violation to TVA because TVA did not inform NRC of the
               higher than expected permeation rate in a license amendment request for
               Watts Bar Unit 1. In March 2010, NRC inspectors reported that TVA failed
               to submit complete and accurate information for the license amendment.
               The failure to submit complete and accurate information was determined
               to be a minor violation because TVA configured the core TPBAR loading
               in a conservative manner. According to NRC, this lack of information
               resulted in NRC giving TVA allowance to change the configuration of the
               core, which NRC may not have otherwise permitted. The higher than
               expected permeation rate of tritium from TPBARs into the reactor coolant
               at Watts Bar Unit 1 and the actual number TPBARs were not known by
               NRC until the program was reviewed by the Government Accountability
               Office.10

9
 License amendment number 8 permitted Watts Bar Unit 1 to load 32 lead test assemblies containing
TPBARs in the reactor core.
10
  GAO-11-100, “Nuclear Weapons: National Nuclear Security Administration Needs to Ensure Continued
Availability of Tritium for the Weapons Stockpile” (October 2010).

                                                   5
       Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



       Table 2 depicts the actual number of TPBARs irradiated at Watts Bar Unit
       1. Watts Bar Unit 1 had 240 TPBARs installed from fall 2003 to spring
       2008. That number was increased to 368 in spring 2008, and then
       reduced to 240 again in fall 2009, then increased to 544 in the fuel cycle
       that started in spring 2011.

Table 2: Actual TPBARs Irradiated at Watts Bar Unit 1 Per Cycle



    Approximate Fuel                                    Number of
                                  Fuel Cycle
      Cycle Dates                                    TPBARs Irradiated

  Fall 1997 - Spring 1999                2                     32
  Spring 1999 - Fall 2000                3                     0
  Fall 2000 - Spring 2001                4                     0
   Fall 2001 - Fall 2003                 5                     0
  Fall 2003 - Spring 2005                6                    240
  Spring 2005 - Fall 2006                7                    240
  Fall 2006 - Spring 2008                8                    240
  Spring 2008 - Fall 2009                9                    368
  Fall 2009 - Spring 2011                10                   240
  Spring 2011 - Present                  11                   544
Source: OIG analysis of TVA documents.



       NRC Licensing of Tritium Production at Sequoyah Units 1 and 2

       Sequoyah Nuclear Power Plant Units 1 and 2 are located near Soddy-
       Daisy, Tennessee – 9.5 miles northeast of Chattanooga, Tennessee.
       Both Sequoyah Units 1 and 2 are Westinghouse four-loop pressurized
       water reactors. Sequoyah Unit 1’s operating license was issued
       September 17, 1980, and expires September 17, 2020. Sequoyah Unit
       2’s operating license was issued September 15, 1981, and expires
       September 15, 2021.




                                             6
          Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



          In September 2001, TVA filed an application to amend the Sequoyah
          Units 1 and 2 plant licenses to allow for the irradiation of up to 2,256
          TPBARs in the reactor core each fuel cycle. In September 2002, NRC
          issued license amendment numbers 278 and 269, to Sequoyah Units 1
          and 2, respectively, approving irradiation of up to 2,256 TPBARs. On
          December 1, 2003, NRC issued license amendment numbers 289 and
          279 for the Sequoyah Units 1 and 2, respectively, revising the plants’
          technical specifications, but still allowing up to 2,256 TPBARs to be
          irradiated each fuel cycle. Tritium production has not commenced at
          either of the Sequoyah units.



II.    PURPOSE

          The evaluation objective was to determine the effectiveness of NRC’s
          oversight of tritium production at commercial nuclear reactors.



III.   RESULTS

          NRC’s oversight of tritium production at commercial nuclear power plants
          is generally effective. However, there are some areas that merit
          management’s attention. OIG determined that:

                 NRC’s licensing of tritium production is permitted under Federal
                 law.

                 Tritium effluents from Watts Bar Unit 1 have increased during
                 tritium production, although they are still well below regulatory
                 limits.

                 It is unclear to stakeholders whether TVA needs subsequent NRC
                 authorization to produce tritium at Sequoyah Nuclear Power Plant
                 Units 1 and 2.

                 NRC’s communication with stakeholders regarding tritium
                 production could be improved.




                                            7
     Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



A.   NRC’s Licensing of Tritium Production Is Permitted Under Federal
     Law

     On October 5, 1999, President Clinton signed the National Defense
     Authorization Act for Fiscal Year 2000, Public Law 106-65, into law. Of
     particular significance to NRC are the provisions authorizing and
     appropriating funds for DOE’s use of commercial light water reactors for
     the production of tritium for weapons purposes. The act expressly
     requires DOE to meet its tritium production needs by using TVA’s Watts
     Bar and Sequoyah nuclear sites, commercial facilities licensed by NRC.
     Specifically, section 3134(a) of subtitle C provides that the Secretary of
     Energy “shall produce new tritium to meet the requirements of the DOE at
     the TVA Watts Bar and Sequoyah nuclear power plants.” By specifically
     authorizing and appropriating funds for DOE’s production of tritium at TVA
     facilities, Congress has eliminated any prior statutory ambiguity as to
     whether these particular commercial facilities may be used for tritium
     production for nuclear weapons purposes. NRC license amendments
     were required to reconfigure the TVA facilities to allow for the production
     of tritium.


B.   Watts Bar Unit 1 Tritium Effluents Increased, and Are Below
     Regulatory Limits

     During the time tritium has been produced at Watts Bar Unit 1, levels of
     tritium being released into the environment have increased, although the
     levels remain below regulatory limits.

     Tritium Effluent Releases from Watts Bar Unit 1 Have Increased

     Effluent releases are the controlled, monitored radioactive liquid or
     gaseous discharges from nuclear power plants. Licensees are required to
     submit annual effluent release reports to NRC. These reports are publicly
     available.

     The trend of tritium effluents released each year by Watts Bar Unit 1 has
     generally increased over the 10-year period beginning in 2001. Although
     tritium effluents are increasing, this cannot be attributed only to the
     irradiation of TPBARs at Watts Bar Unit 1 because tritium is a byproduct at
     all nuclear power plants, including those without TPBARs. According to

                                       8
       Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



       OIG analysis of TVA effluent reports, the average of annual tritium
       releases from 2001 through 2005 was 971 curies per year, and the
       average of annual tritium releases from 2006 through 2010 was 1,565
       curies per year, an increase of about 61 percent. Table 3 shows the total
       curies of tritium annual liquid effluents released from Watts Bar Unit 1.


Table 3:




Source: OIG analysis of TVA reports.



       Tritium effluent releases from nuclear power plants generally do not cause
       ground water contamination. Tritium in ground water at or near nuclear
       power plants has been of increased concern at some plants in the United
       States. Typically, tritium ground water contamination at commercial
       nuclear power plants is a result of a leak in a below-ground system, such
       as a pipe, tank, or valve. Normally, liquid effluents, including diluted
       tritium from nuclear power plants, are released into bodies of water, such
       as the Tennessee River in the case of Watts Bar Unit 1, and do not
       contaminate ground water.




                                         9
                Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



                Watts Bar Effluents Are Below Regulatory Limits

                NRC incorporated into its regulations the dose recommendations from the
                International Commission on Radiological Protection.11 The International
                Commission on Radiological Protection’s recommendation was 100
                millirem (mrem)12 per year for dose to members of the public, and nuclear
                power plants must now meet that requirement. For liquid effluents,
                including tritiated water, licensees can demonstrate compliance with the
                100 mrem per year dose standard by not exceeding the concentration
                values specified in Title 10 of the Code of Federal Regulations (CFR), Part
                20, Appendix B, Table 2. These concentration values, if inhaled or
                ingested over the course of a year, would produce a total effective dose of
                50 mrem.

                Nuclear power plants are also required to report the average
                concentrations of diluted effluents. The regulatory limit for liquid tritium
                effluent releases, as stated in Table 2 of Appendix B to 10 CFR Part 20, is
                1E-3 micro curies per milliliter (µCi/ml), or 0.001 µCi/ml.13 Table 4 in this
                report depicts the tritium annual average diluted concentration liquid
                effluents, according to TVA reports for Watts Bar Unit 1, for 2001 through
                2010. The annual effluent releases ranged from 0.00001125 µCi/ml, to
                0.00005347 µCi/ml, well below the regulatory limit of 0.001 µCi/ml.




11
  The International Commission on Radiological Protection is an organization of international scientists
who provide recommendations regarding radiation protection activities, including doses.
12
  A millirem is a unit of radiation dose. One millirem is one thousandth of a rem. The rem is a standard
unit used to measure the dose equivalent (or effective dose), which combines the amount of energy (from
any type of ionizing radiation that is deposited in human tissue), along with the medical effects of the
given type of radiation.
13
   1E-3 is a value expressed in engineering notation. 1E-3 equals 1.0 times 10 to the exponent negative
              -3
3, or 1.0 x 10 .

                                                    10
               Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



Table 4:


                             Watts Bar Unit 1
               Tritium Annual Average Diluted Concentration
                              Liquid Effluents
                    0.000060


                    0.000050


                    0.000040

       micro curies
                     0.000030
       per millilter

                    0.000020


                    0.000010


                    0.000000
                                2001 2002 2003 2004 2005 2006 2007 2008 2009 2010


Source: OIG analysis of TVA reports.



       C.      It Is Unclear to Stakeholders Whether TVA Is Authorized To Produce
               Tritium at Sequoyah Units 1 and 2

               It is not clear to stakeholders whether Sequoyah Nuclear Power Plant
               Units 1 and 2 would need subsequent license amendments to produce
               tritium.14 Sequoyah Units 1 and 2 license amendment numbers 278, 269,
               289, and 279 each contained a clause that the license amendments were
               effective as of the date of issuance, but are to be implemented no later
               than the startup from an outage in which TPBARs are loaded into the
               reactor core. The clause in the license amendments also provided that if
               changes are made to the reactor that materially affect the basis of the
               approval of the license amendments, then TVA is not authorized to
               irradiate TPBARs in the reactor core.

14
  On October 22, 2003, TVA advised NRC that the production of tritium in the Sequoyah reactors had
been delayed indefinitely.

                                                 11
                Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



                Since TPBARs have not been installed in either Sequoyah Unit 1 or 2, the
                provisions authorizing the loading of TPBARs in license amendment
                numbers 278, 269, 289, and 279 have not been implemented in
                Sequoyah’s technical specifications. However, NRC’s permission allowing
                up to 2,256 TPBARs to be installed at both Sequoyah units is still in
                place – as long as TVA determines that no changes have occurred that
                materially affect the basis for the approval of the license amendment.
                Because the change in the technical specifications that incorporates the
                license amendment cannot be made until TPBARs are installed, it is not
                evident to stakeholders from reading the Sequoyah technical
                specifications that these nuclear reactors have NRC approval to install up
                to 2,256 TPBARs in their core.15 Assuming that TVA has not made any
                changes to the Sequoyah units that materially affect the basis of approval
                of the amendments, then TVA has NRC approval to load up to 2,256
                TPBARs into Sequoyah Units 1 and 2.

                Some NRC and TVA staff have said that to produce tritium at either
                Sequoyah unit, TVA would need to seek another license amendment.
                However, other NRC staff stated that Sequoyah is authorized to produce
                tritium, by irradiating up to 2,256 TPBARs. To know whether Sequoyah is
                authorized to produce tritium at Sequoyah Units 1 and 2, a stakeholder
                would need to be aware of the clause in the license amendments and
                whether TVA has made any changes to Sequoyah that materially affect
                the basis for NRC approval of the amendments.

                Issue for management consideration:

                NRC management should consider clarifying to stakeholders whether
                Sequoyah Nuclear Power Plant Units 1 and 2 would need a subsequent
                license amendment to be authorized to produce tritium.




15
  In contrast, the Watts Bar Unit 1 technical specifications include language making it clear to a
stakeholder that tritium production at the plant is permissible.


                                                    12
                Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



        D.      NRC’s Communication Regarding Tritium Production Could Be
                Improved

                NRC’s communication with stakeholders regarding tritium production
                could be improved. A communication plan for Watts Bar Unit 1 and
                Sequoyah Units 1 and 2 tritium production was issued August 28, 2001,
                but it has not been updated and is not an active communication plan.
                NRC’s communication plan Web page states that a communication plan
                should be kept up to date, referred to routinely, and revised if necessary.
                A communication plan is the strategy component that outlines what tools
                to use to ensure a consistent and accurate message to all stakeholders
                regarding a response, action, or initiative.

                NRC guidance states that there are several circumstances when a
                communication plan may be needed, for example, when an NRC project,
                program, or event is controversial or highly visible, which may provoke a
                reaction from stakeholders such as Congress or the public, or when the
                results of the decisions will affect the environment or public health and
                safety.

                The purpose of the communication plan for oversight of tritium production
                is to ensure that internal and external stakeholders understand NRC’s
                licensing role and its responsibility to ensure that TVA maintains reactor
                safety while providing irradiation services. The secondary goal of the
                communication plan is to assist DOE in its efforts to increase public
                confidence in DOE use of commercial nuclear power reactors as
                irradiation facilities to produce tritium. This plan helps ensure that NRC
                informs internal and external stakeholders about the program to produce
                tritium.

                NRC’s Office of Nuclear Reactor Regulation16 would consider the
                communication plan on tritium production complete when NRC issues the
                license amendments and completes any other tritium production program
                licensing reviews for Watts Bar and Sequoyah, or when DOE determines
                that it no longer wants to use a commercial power reactor as part of its


16
  The Office of Nuclear Reactor Regulation supports the NRC mission to protect public health, safety,
and the environment by developing and implementing rulemaking, licensing, oversight, and incident
response programs for reactors.


                                                   13
Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



tritium production program. Although the communication plan is inactive,
these licensing and production activities were still ongoing as of July 2011.

Changes Since the Communication Plan Was Issued

Much has changed with respect to DOE’s tritium production program since
the 1996 memorandum of understanding was approved and the 2001
communication plan was written:

       Public interest has increased, especially regarding tritium leaks at
       nuclear power plants.
       Due to the permeation rate per TPBAR being higher than originally
       anticipated, TVA chose to request a lower limit of TPBARs to be
       irradiated at Watts Bar than initially approved.
       DOE tritium requirements have been reduced due to the reduction
       in the number of nuclear weapons.

Additionally, according to TVA staff, DOE plans to supplement the
Environmental Impact Statement for its continued tritium production at
commercial nuclear power plants. This will likely result in public meetings
and other regulatory and licensing activities of interest to stakeholders.
Due to the revised Environmental Impact Statement, there will likely be
increased stakeholder interest in regulatory activities related to tritium
production over the next few years, and NRC would benefit from an
updated tritium production communication plan.

Issue for management consideration:

NRC management should consider updating and reissuing a
communication plan for the tritium production program.




                                 14
         Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants



IV.   AGENCY COMMENTS

         On August 25, 2011, OIG issued a discussion draft to the Executive
         Director for Operations. On September 8, 2011, Agency staff provided
         informal comments to the draft report. OIG subsequently met with NRC
         management on September 9, 2011, for an exit conference. On
         September 12, 2011, OIG provided the agency a revised discussion draft
         and on September 15, 2011, the agency declined to provide formal
         comments. The final report incorporates revisions made, as appropriate,
         as a result of comments provided by NRC and meetings with NRC staff.




                                          15
       Evaluation of NRC’s Oversight of Tritium Production at Commercial Nuclear Power Plants


                                                                                  Appendix


SCOPE AND METHODOLOGY

       OIG conducted this evaluation to determine the effectiveness of NRC’s
       oversight of tritium production at commercial nuclear power plants. OIG
       reviewed law applicable to NRC’s oversight of tritium production at
       commercial nuclear reactors, including the Atomic Energy Act of 1954, as
       amended; the Energy Reorganization Act of 1974; and the National
       Defense Authorization Act for Fiscal Year 2000. OIG also reviewed all
       license amendments allowing insertion of TPBARs in Watts Bar Unit 1 and
       Sequoyah Units 1 and 2; the Core Operating Limits Reports for those fuel
       cycles at Watts Bar Unit 1 in which TPBARs were irradiated; and Watts
       Bar Nuclear Power Plant Annual Radioactive Effluent Release Reports for
       2001 to 2010. OIG also reviewed NRC’s Safety Evaluation Reports –
       NUREGs 1607 and 1672 – relative to the insertion of TPBARs into a
       commercial nuclear reactor. Additionally, OIG reviewed NRC’s
       “Communication Plan for NRC’s Role in DOE’s Program to Produce
       Tritium” and a 1996 Memorandum of Understanding between NRC and
       DOE.

       OIG interviewed NRC staff in the Office of Nuclear Reactor Regulation,
       Region II, and the Office of the General Counsel. OIG also interviewed
       staff from TVA. On April 28, 2011, OIG attended a meeting in Athens,
       Tennessee, to discuss the 2010 performance assessment for Watts Bar
       Unit 1 Nuclear Power Plant and construction inspections for Watts Bar
       Unit 2. On June 7, 2011, OIG observed a pre-submittal meeting on
       TPBARs for Watts Bar Unit 1 between TVA staff and NRC staff.

       We conducted this evaluation at NRC headquarters and Athens,
       Tennessee, from April 2011 through July 2011. The evaluation work was
       conducted by Sherri Miotla, Team Leader; Michael Zeitler, Audit Manager;
       Kevin Nietmann, Senior Technical Advisor; Mitzi Lorette, Senior Auditor;
       and Kristen Lipuma, Management Analyst.




                                        16
